No,

10 ~ h$3
In the

Supreme Court of the United States
In re: MITZI ELAINE DAILEY, Petitioner

MITZI ELAINE DAILEY,
Petitioner

FILED
OCT 2 5 2020

V.

ATTORNEY GRIEVANCE COMMISSION

1. SUPlREEM°FC1OURTLnQK

Respondent.

PETITION FOR WRIT OF CERTIORARI

MITZr ELAINE DAILEX
The Daileylaw Group, LI*C
P.O. Box 22297
Baltimore, Maryland 21203
(443)915-3149
daileylaw@aol.com
Petitioner, Pro Se

RECEIVED
NOV - 2 2020
OFFICE OF THE CLERK
SUPREME COURT. U S.

QUESTIONS PRESENTED FOR REVIEW
Should the Maryland Court of Appeals, acting by and
through its Attorney Grievance Commission, have granted
Petitioner’s request for a hearing on her Petition for Writ of
Mandamus, to present her constitutional due process and equal
protection challenges, including: (1) the complainant in this
attorney disciplinary case admitted that he had no evidence to
support his allegations; (2) confidential information of the
investigation was improperly disclosed to an unrelated pro
bono client; allowing that client to file a complaint; (3) the
assigned trial judge for the disciplinary case, Baltimore City
Circuit Court Judge, the Honorable Jeffery M. Geller, had been
the trial Judge for another unrelated pro bono client of this
Petitioner and (4) permitted the participation of Baltimore City
Circuit Court Judge, the Honorable Lawrence V. Fleteher-Hill,
who is currently presiding and ruling in another unrelated pro
bono client of this Petitioner?

l.

PARTIES
Mitzi Elaine Dailey, Esq.
Petitioner

-

Maryland Court of Appeals
-Respondent
Attorney Grievance Commission
-Respondent
The Honorable Jeffrey M. Geller
Circuit Court of Maryland for Baltimore City
-Respondent
The Honorable Lawrence V. Fletcher-Hill
Circuit Court of Maryland for Baltimore City
-Respondent
Lydia E. Lawless, Esq.
-Respondent
Christine Marie Celeste, Esq.
Respondent
Brian E. Frosh, Maryland Attorney General
Michele McDonald, Assistant Attorney General
Joseph Dudek, Assist Attorney General
Debora Goodrick, Assistant Attorney General
-Counsel for All Respondents)

n

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW.

l

PARTIES......................................................

11

TABLE OF CONTENTS

.111

TABLE OF AUTHORITIES

.iv., v

PRIOR OPINION.

vi

JURISDICTION.

,vi

CONSTITUTIONAL PROVISIONS

Vll

STATUTES INVOLVED

Vlll

1

STATEMENT OF THE CASE
PROCEDURAL HISTORY.

1

STATEMENT OF FACTS

7

REASONS FOR GRANTING THE PETITION.

10

CONCLUSION.

21

CERTIFICATION OF WORD COUNT

22

CERTIFICATE PROOF OF SERVICE

23

A-l

APPENDIX,

in

TABLE OF AUTHORITIES
Case

Page

Berger v. United States, 255 U.S.22, 33,
41 S.Ct.230, 233, 65 L.ED. 481 (1921)....

18

Collins v. Dixie Transport, Inc., 543 So.2d 160
(1989).........................................................................

18

Fuentes u. Sheuin, 407 U.S. 67, 80,
92 S. Ct. 1983, 1994 (1972)........ ....... ..................

15

Gibson v. Berryhill, 411 U.S. 564 (1973)

12

Juidice v. Vail, 430 U.S. 327 (1977)

12

Loudermillv. Cleveland Bd. OfEduc.,
721 F.2d 550, 563 (6th Cir. 1983), affd, 470 U.S. 532,
S.Ct. 1487, 84 L.Ed. 2d 494 (1985).................................

10

McKesson Corp. v. Div. of Alcoholic Bevs. & Tobacco,
496 U.S. 18, 39 n.22, 110 S.Ct. 2238, 2251 (1990).......

10

Middlesex County Ethics Comm. v. Bar Assn.,
10, 11, 12, 13
457 U.S. 423 (1982)
Schware v. Board of Bar Examiners,
353 U.S. 232 (1957)..............................

18

Valley et al. v. Rapides Parish School Board,
118 F.3d 1047 (5* Cir. 1997) at 1052..............

17

U.S. v. Avilez-Reyes, 160 F.3d 258 (5*h Cir. 1998)..... 19, 20
Wisconsin v. Constantineau, 400 U.S. 433 (1937)

18

World'Famous Drinking Emporium, Inc. v.

City of Tempe, 820 F.2d 1079, 1082 (9* Cir. 1987)

12

Younger v. Harris, 401 U.S. 37 (1971)

12.

IV

TABLE OF AUTHORITIES
Page

Constitutional Statute
Article XIV, Section 1, U.S. Constitution,

vn

Maryland Constitution
Maryland Const. Decl. Rights, Article 24

.vn

Maryland Statutes & Rules
MD CODE ANN. TITLE 19 - ATTORNEYS
Maryland Rule 19-707

13, 14, 15

Maryland Rule 19-725

13, 15, 16

v.

PRIOR OPINIONS
There are no prior Opinions in this matter but there is
an Order from the Maryland Court of Appeals, Denying the
Petition for Writ of Mandamus, without explanation. The
Maryland Court of Appeals Order is reproduced in
Appendix at A-l.
JURISDICTION
Petitioner seeks this Court's review of the judgment
entered on July 27, 2020 by the Court of Appeals for Maryland,
by a Petition for Writ of Mandamus Petition pursuant to the
jurisdiction conferred by 28 U.S.C. § 1257(a) and the
Fourteenth Amendment of the United States Constitution.
This petition is timely filed because it was mailed within
ninety days of the last Order of the Court of Appeals, that
Denied the Petition and was dated July 27, 2020.

vi

CONSTITUTIONAL PROVISIONS
That the Due Process Clause of the 14th Amendment to
the United States Commission provides that:
No State shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United States;
nor shall any State deprive any person of
life, liberty or property, without due process
of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Maryland Constitutional Provisions
That the Maryland Constitution, Declaration of Rights,
Article 24, provides:
That no man ought to be taken or imprisoned or
disseized of his freehold, liberties, or privileges, or
outlawed, or exiled, or in any manner, destroyed, or
deprived of his life, liberty or property, but by judgment
of his peers, or by the Law of the land.

Vll

STATEMENT OF THE CASE
Procedural History
Petitioner, Mitzi Elaine Dailey, a Maryland
attorney for 25 years, with a civil practice, primarily serving
pro bono and low bono individuals in Baltimore City, State of
Maryland, is the respondent in an attorney disciplinary
proceeding initiated by the Maryland Attorney Grievance
Commission. The proceeding began with an investigation in
November of 2018 of a complaint filed by a pro bono client,
Geoffrey Wolst, that alleged there had been no communication,
return of telephone calls or texts regarding the status of his
case for 6 months. That once the investigation was in process
and Mr. Wolst was questioned by the investigator for the
Attorney Grievance Commission, as to his documentation for
these allegations, the client stated that he “has no records of
the telephone calls or texts to the attorney.” The client
never submitted, nor was he required to submit any telephone
records, text messages, emails, letters, or any other
documentation in support of his allegations.

-1-

Petitioner has never had any disciplinary actions
brought against her. Petitioner has been honored by the
Maryland Volunteer Lawyer Service, recognized as Volunteer
of the Month in July 2018, for commitment in providing legal
representation for pro bono cases, in what was described as
appreciation for accepting a “staggering 27 cases taken in three
years”.
This matter was in the investigation stage from
November 2018, until March 24, 2020, more than 400 days,
until the Petition for Disciplinary Action was filed on March
24, 2020, at a time that the Maryland Courts were closed by
Order of The Chief Judge of the Court of Appeals of Maryland,
the Honorable Mary Ellen Barbera, due to the COVID 19
pandemic.
Maryland Disciplinary Procedure Rule 19-711(d) (1)
Time for Completing Investigation Complaint provides:
Generally. Subject to subsection (b)(3) of this Rule or unless the
time has is extended pursuant to subsection (d)(2) of this Rule,
Bar Counsel shall complete an investigation within 90 days
after opening the file on the complaint.

-2-

Petition for Disciplinary was filed by Bar Counsel,
Lydia E. Lawless and Assistant Bar Counsel, Christine Marie
Celeste, in the Circuit Court for Baltimore City and the Judge
assigned was The Honorable Jeffery M. Geller. The Petition
alleged attorney did not communicate with the client and
alleged that the attorney did not perform the legal services
requested and agreed upon by the client, in regard to the estate
matter and criminal case of the client. Thereafter, during the
early stages of the pandemic with all citizens in the State of
Maryland under a stay at home Order, the Assistant Bar
Counsel, elected to publish Petitioner’s home address in her
pleadings and send numerous versions of her pleadings to
Petitioner’s home; disclosing to family members this
disciplinary proceeding.
As well, the Assistant Bar Counsel, Christine Marie
Celeste, served in April 2020, Requests for Admissions directed
to attorney, “Neda Biggs”, to answer within thirty (30) days.
Thereafter, on or about May 11, 2020, Petitioner filed
her Answer to the Disciplinary Complaint, denying the
allegations, setting forth affirmative defenses of failure to state
a claim, fraud; inadequate due process; and illegality.
-3-

Thereafter, in the months of June and July 2020, the
Assistant Bar Counsel, Christine Marie Celeste, took actions to
attempt to force Petitioner to answer her Requests for
Admissions that was addressed to another attorney. When she
could not force this Petitioner to submit to her demand, she
filed for and had an Order entered for Sanctions, wherein all of
her allegations were admitted. Additionally, both Assistant
Bar Counsel and The Honorable Jeffery M. Geller scheduled
the trial as a “remote trial” at the end of July 2020, during a
time when the Baltimore City Circuit Court and Maryland
Courts were not open for trials yet, due to the COVID-19
pandemic. Thereafter, there were Scheduling emails sent by
The Honorable Jeffery M. Geller informing Petitioner that a
“remote trial”, would be held and including The Honorable
Lawrence V. Fletcher-Hill, who is presiding and making
decisions (often adversely ruling and showing animus toward
Petitioner) on a different pro bono client’s matter that this
attorney was representing. See, Smith v. City Neighbors, et. al,
Baltimore City Circuit Court Case No. 24-C-19-004212.

-4-

After the aforementioned, Petitioner filed her Petition
for Writ of Mandamus with the Court of Appeals
on July 13, 2020, asserting the violations of her Due Process
rights guaranteed under the 14th Amendment to the United
States Constitution; including proceeding to trial when the key
witness concedes he has no evidence of the alleged misconduct;
violations of rights of confidentiality; due process violations in
admitting the Requests for Admissions that had been
propounded to attorney, “Neda Biggs” and violating Petitioner
rights to a fair and impartial tribunal with its, inclusion of a
Judge presiding over an ongoing separate case of the
Petitioner; and setting a videoconference trial at a time when
the Maryland Courts were not open due to the pandemic.
Thereafter, on July 27, 2020 the Honorable Chief Judge,
Mary Ellen Barbera, Court of Appeals, Denied the Petition for
Writ of Mandamus, without explanation. See, Appendix A-1
Next, Baltimore City Circuit Court Judge Jeffery M.
Geller and Assistant Bar Counsel, Christine Marie Celeste
determined they would move forward with the trial on
August 11, 2020, still in violation of the Order(s) that the
Maryland Courts and Baltimore City Circuit Court were not
-5-

open for trial due to the COVID-19 pandemic. Petitioner did
not participate in this proceeding, in which there was no
possibility of a fair and impartial hearing on any of the issues,
including Petitioner’s constitutional due process challenges.
Assistant Bar Counsel, thereafter, had her Requests for
Admissions propounded to attorney “Neda Biggs”, admitted
against this Petitioner; had Petitioner’s Answer and
Affirmative Defenses stricken and was permitted to have her
late filed Pre-Trial Statement admitted.
All in absolute violation of Petitioner’s due process rights
to full and fair trial; right to confront witness, right to a fair
and impartial tribunal and other rights under the 14th
Amendment of the United States Constitution.
That as of September 22, 2020, the Maryland Court of
Appeals, received the Findings of Fact and Conclusions of Law
of The Honorable Judge Jeffery M. Geller, finding in favor of
the Attorney Grievance Commission on all issues.
Additionally, as of October 6, 2020, the Attorney Grievance
Commission has filed its Recommendation for Sanctions and
Statement of Costs, wherein it has requested disbarment and
that Petitioner be held responsible for all costs.
-6-

That as of October 7, 2020, this Petitioner, Mitzi Elaine
Dailey, has filed Exceptions to the Findings of Fact and
Conclusion of Law of Judge Jeffery M. Geller, Denying all the
Facts set forth therein; reasserting that the Petition for Writ of
Mandamus that set forth the Due Process violations, and that
the Petition had been Denied and Request for a Hearing.
The Maryland Court of Appeals has scheduled Oral
Arguments for the dates of January 4, 5, 7 or 8, 2021.
As well, during the investigation stage of the
Commission’s action, it disregarded Petitioner’s right to
confidentiality advising another of Petitioner’s pro bono clients
that the above complaint had been filed, and almost
immediately that client filed a complaint.
Facts
This Petitioner has never had any disciplinary case
until this action was brought but to the contrary for all of her
25 years as an attorney has performed primarily pro bono work
for individuals that would otherwise have to go without legal
representation. This Petitioner has never had a disciplinary
action filed against her, to the contrary, has continuously
worked with pro bono organizations such as
-7-

Catholic Charities; Kids In Need of Defense (“KIND”); Civil
Justice Network and Mid-Shore Pro Bono. As well, from my
earliest days as an attorney beginning in 1996,1 have
consistently accepted many clients from Maryland Volunteer
Lawyers Service.
Thus, it is these proceedings instituted by the Attorney
Grievance Commission, based solely on a wholly unfounded
and unsupported complaint filed by a client, Geoffrey Wolst, on
November 17, 2018, that alleged “he did not know what was
going on with his case; had not communicated with Petitioner
in six months and would not speak with Petitioner because he
had filed his complaint”.
This client had received Petitioner’s name from the Civil
Justice Network, and, he initially sought legal advice and
representation regarding whether he could become the
personal representative for his mother’s estate after his mother
left almost $90,000 dollars to his niece and it was the client’s
belief that the niece may also have been named as the personal
representative. At the same time, the client also requested
Petitioner’s legal advice and representation, in regard to
difficulties with his sister, with whom he lived and that
-8-

ultimately escalated to the sister filing police charges; filing for
a protective order and having the client removed from the
home.
As well the Petitioner was asked to provide advice
regarding the client and his niece decision to divide the
$90,000.00, with each depositing one half into their own
personal bank accounts. Assistant Bar Counsel was provided
with all documentation and information regarding Petitioner’s
representation, but she determined, solely on her own, that she
did not believe any of Petitioner’s statements and would not
accept any of her documentation. While at the same time
Assistant Bar Counsel did not require the client, Mr. Wolst, to
produce any documents to support his allegations.
As well, during the investigation stage of the
Commission’s action, it disregarded Petitioner’s right to
confidentiality advising an unrelated pro bono client of the
Petitioner that this complaint had been filed, and upon which
that client almost immediately filed a complaint.

-9-

REASONS FOR GRANTING THE PETITION
The issues presented in this matter are of critical
constitutional and national importance, as it presents a
fundamental question and conflict among the States Supreme
Courts, as to an attorney’s right to assert constitutional
challenges of violations of protections afforded by the United
States Constitution during the course of a state disciplinary
proceedings. See, Middlesex County Ethics Comm. v. Bar
Assn.,457 U.S. 423 (1982); Fuentes v. Shevin, 407 U.S. 67, 80,
92 S. Ct. 1983, 1994 (1972); Loudermill u. Cleveland Bd. Of
Educ., 721 F.2d 550, 563 (6th Cir. 1983), affd, 470 U.S. 532, 105
S.Ct. 1487, 84 L.Ed. 2d 494 (1985). In this instance, the
Supreme Court has held that, “The fundamental requirement
of due process is the opportunity to be heard ‘at a meaningful
time and in a meaningful manner.” McKesson Corp. v. Div. of
Alcoholic Bevs. & Tobacco, 496 U.S. 18, 39 n.22, 110 S.Ct.
2238, 2251 (1990).
The United States Supreme Court has considered this
issue in an attorney’s assertion of his First Amendment rights
under the United States Constitution during the course of a

-10-

New Jersey State Court attorney disciplinary proceeding. See,
Middlesex County Ethics Committee v. Garden State Bar
Association, et al., 457 U.S. 423 (1982).
In the Middlesex case, the New Jersey Court questioned
public statements made by the attorney and made the
pertinent inquiry of whether the state proceedings afforded an
adequate opportunity to raise the constitutional claim. See,
Middlesex County Ethics Committee v. Garden State Bar
Association, et al., 457 U.S. 423 (1982).
In analyzing when abstention is appropriate, the Court
provided that abstention by the federal court is appropriate for
an ongoing state proceeding that is (1) judicial in nature, (2)
implicates important state interests, and (3) provides an
adequate opportunity to raise federal challenges. Equally,
important, to the determination was, as long as there is no bad
faith or harassment on the part of the State and the State
disciplinary rules were not “flagrantly and patently”
unconstitutional or any extraordinary circumstances, then the
federal courts would abstain from intervening in the case.
See, Middlesex County Ethics Committee v. Garden State Bar
Association, et al., 457 U.S. 423 (1982).
-11-

Previously, the United States Supreme Court’s doctrine
enunciated in Younger v. Harris, 401 U.S. 37 (1971) had been
of abstention of the federal courts from pending state or
administrative proceedings, as the governing principle. See,
Juidice v. Vail, 430 U.S. 327 (1977); Gibson v. Berryhill, 411
U.S. 564 (1973).
However, in the Middlesex case, the New Jersey
Supreme Court and local Ethics Committee was able to
establish that it was a judicial proceeding, in which it provided
an “adequate opportunity” for the attorney to raise his
constitutional claims. As well, the Court further stated:
“That any doubt as to the matter was laid to rest
by the New Jersey Supreme Court’s subsequent
actions when, prior to the filing of the petition for
certiorari in this Court, it sua sponte entertained
the constitutional issues raised by Hinds”.
See, Middlesex County Ethics Committee v.
Garden State Bar Association 457 U.S. 423 (1982).
However, even if all three of the requirements set forth in
the Middlesex case are satisfied, abstention is not appropriate
if, bad faith prosecution or harassment is present, or where a
statute flagrantly violates constitutional provisions. See,
World Famous Drinking Emporium, Inc. v. City of Tempe, 820
F.2d 1079, 1082 (9th Cir. 1987).
-12-

A. This Court Should Grant Certiorari as the
Maryland Rules and Court of Appeals Do Not
Allow the Attorney to Assert a Constitutional
Challenge
The Maryland Court of Appeals, unlike in the Middlesex
case involving the New Jersey Supreme Court that provided
an opportunity for the attorney in its disciplinary process to
have his constitutional claims adjudicated within its process,
does not have such a procedure, and in fact, denied without
explanation Petitioner’s Writ of Mandamus, foreclosing all and
any opportunity to be heard on these issues.
As well, the Maryland Court of Appeals, acting by and
through its Attorney Grievance Commission and Bar Counsel,
does not have a process similar to the New Jersey Court where
there is first a determination as to whether a prima facie case
has been asserted by the complainant.
Specifically, the Maryland Rule(s) 19-707 and 19-725,
provide that:
(1) Attorney to have confidentiality and privacy prior to
the fifing of the Petition for Disciplinary Action; but
(2) Prohibited the attorney that is the subject of the
disciplinary proceeding from fifing anything other than
the Answer, and states:
-13-

Attorney Rule 19-707 Confidentiality and Privacy
At the time prior to the filing of the Petition for
Disciplinary Action, the proceedings of the Commission
are:
Confidential as per Rule 19-707, which provides in
part:
(a) Peer Review Meetings,
(1) Confidentiality Generally. All communications,
whether written or oral, and all non-criminal
conduct made or occurring at a meeting of a peer
review panel are confidential and not open to
public disclosure or inspection. Except as
otherwise expressly permitted in this Rule,
(2) individuals present at the meeting shall maintain
that confidentiality and may not disclose or be
compelled to disclose such communication or
conduct in any judicial, administrative or other
proceeding.
(b)Other Confidential Material.
Except as otherwise provided in this Rule, the
records and proceedings listed in this section
and the contents of those records and proceedings are
(1) confidential and not open to the public inspection
and
(2) may not be disclosed by Bar Counsel, the staff and
investigators of the Office of Bar Counsel, any
member of the Commission, the staff of the
Commission; the Peer Review Committee;
any attorney involved in the proceeding, or, in any
civil action or proceeding, by the complainant or
an attorney for the complainant.
(A) the records of an investigation by Bar Counsel,
including the existence and content of any
complaint or response, until Bar Counsel files a
petition for disciplinary or remedial action
pursuant to Rule 19-721__

-14-

Attorney Rule 19-725 -Pleadings; Motions:
Amendments
(a) Pleadings. Except as provided in section (b) of
of this Rtde or otherwise expressly permitted by
these Rules or ordered by the Court of Appeals, the
only pleadings permitted in an action for Disciplinary
or Remedial Action are the petition and an answer.
(b)Amendments. Bar Counsel may amend a petition
and the attorney may amend an answer in
accordance with the applicable provisions of
Rule 2-341.
As well, the Committee note for this section of
Rule 19-725 also confirm that there is no forum to
address constitutional claims, as stated:
Committee note: Proceedings on a Petition for
Disciplinary or Remedial Action are conducted
pursuant to the original jurisdiction of the Court
of Appeals to regulate the practice of law and are not
the place for collateral actions or such things as
counterclaims. Moreover, because the authority
of the circuit court judge designated by the Court
of Appeals pursuant to Rule 19-722 is limited to
taking evidence and making findings of fact and
proposed conclusions of law, that judge is not
empowered to dismiss a petition. Defenses
to the petition may be raised in the answer and
may be addressed by the designated judge, but
only the Court of Appeals has the authority
to dismiss all or part of a petition.
Thus, the Petitioner while in one instance had already
had her right to confidentiality violated under Rule 19-707, by
the Attorney Grievance Commission, by and through its’
-15-

employees by informing another of Petitioner’s pro bono clients
of the investigation of this matter, before the Petition for
Disciplinary Action was filed in Court; and facing the
limitations of Rule 19-725 that the Attorney subject to the
Disciplinary action can only file an Answer and the last
opportunity to challenge the State’s actions, the Petition for
Writ of Mandamus having been summarily denied and closed;
this Petitioner, no possibility of the constitutional due process
violations being addressed in the State Court proceedings
B. This Court Should Grant Certiorari Due to the
Bad Faith. Harassment and Extraordinary
Circumstances:
(1) The Maryland Court of Appeals, acting by and through
the Attorney Grievance Commission, proceeding to a
disciplinary trial, despite the Complainant/client;
admitting he had no evidence of the alleged acts;
and would not communicate with the Petitioner
because he had filed a complaint; and
(2) The Attorney Grievance Commission disclosing what
was confidential information to a different pro bono
client of Petitioner, of the Complainant/Client’s
investigation; and then that client filing a grievance; and
(3) Assistant Bar Counsel, Christine Marie Celeste,
publishing Petitioner’s home address to the public; and
(4) Assistant Bar Counsel, Christine Marie Celeste, mailing
numerous versions of her pleadings in this disciplinary
matter to Petitioner’s home, at the height of the COVID19 pandemic, when receipt of large packages was
discouraged; and providing Petitioner’s family members
with notice of the disciplinary proceeding;
-16-

(5) Assistant Bar Counsel, Christine Marie Celeste,
propounding her Requests for Admissions addressed to a
different attorney, “Neda Biggs” and then having those
admissions admitted against Petitioner in the court
proceedings; and
(6) Assistant Bar Counsel, Christine Marie Celeste, moving
to have Petitioner’s Answer and Affirmative Defense
Stricken from the record, after the Petition for Writ of
Mandamus was filed.
C.

This Court Should Grant the Petition Due to the
Abuse of Judicial Discretion

In considering the requirements of due process, that,
The basic requirement of constitutional due
process is a fair and impartial tribunal, whether
at the hands of a court, an administrative agency
or a government hearing officer. The Supreme Court
has consistently enforced this basic procedural
right and held that decision makers are
constitutionally unacceptable in the following
circumstances [including]...where an adjudicator
has been the target of personal abuse or
criticism from the party before him...
Valley et al. v. Rapides Parish School Board,
118 F.3d 1047 (5* cir,. 1997) at 1052.
As well there can be no greater due process violations or
travesty of justice, than to have an attorney facing a
disciplinary matter, with the presiding Judge being one that
the attorney appeared before for trial or even worse, having a
Judge included in the disciplinary case and/or trial, while
presently making rulings, (some adversely), in a current case of
a client of the attorney.

-17-

That caselaw clearly sets forth the dilemma to be one
that an individual should be free of, and so states:
That a judge who is otherwise qualified to preside
at trial or other proceeding must be sufficiently
neutral and free of disposition to be able to render
a fair decision. No person should be required
to stand trial before a judge with a ‘bent of
mind.’ Collins v. Diode Transport, Inc.,
543 So.2d 160 (1989), at 166 citing
Berger v. United States, 255 U.S. 22, 33, 41 S.Ct.230,
233, 65 L.Ed. 481 (1921).
Moreover, the United States Supreme Court has stated that:
“For where a person’s good name, reputation, honor, or
integrity is at stake because of what the government is
doing to him, notice and an opportunity to be heard are
essential”. See, Wisconsin v. Constantineau, 400 U.S.
433 (1937).
As well the Supreme Court has consistently held that
“A State cannot exclude a person from the practice of
law or from any other occupation in a manner or for reasons
that contravene the Due Process Clause of the Fourteenth
Amendment. See, Schware v. Board of Bar Eocaminers, 353
U.S. 232 (1957).
(l)Lack of Judicial Independence
And thus, in assigning, the Honorable Jeffrey M. Geller
who had already been the trial judge in another of Petitioner,
pro bono client’s divorce case, absolutely denied Petitioner the
basic constitutional due process protection for which she was
entitled. See, Handy v. Handy, Baltimore City Circuit Court
Case No.: 24-D-17-000503.
-18-

As well, the Honorable Jeffery M. Geller was deciding,
pursuant of the request of Assistant Bar Counsel, Christine
Celeste to admit the Requests for Admissions that were
propounded to another attorney; striking Petitioner Answer
with her Affirmative Defenses and then entering his Findings
of Fact that Petitioner had committed the offenses.
2. Lack of Judicial Independence
Then, equally violative of the fundamental principles of
fairness and requirements of due process, was permitting the
Honorable Lawrence V. Fletcher-Hill to be included in this
disciplinary proceeding, while he is currently presiding over
and ruling (often adversely and demonstrating his animus for
Petitioner at every hearing) in another of Petitioner client’s
cases in Smith v. City Neighbor, et. al, Baltimore City Circuit
Court Case No. 24-C-19-004212
When the Fifth Circuit federal case, when the court had
an opportunity to consider a somewhat analogous case of a lack
of judicial independence, where the facts involved a defendant
Avilez-Reyes, the Court vacated the sentence and remanded
the case to the district court because the defendant’s attorney

-19-

had participated in a judicial disciplinary proceeding a month
earlier against the trial judge, who then erroneously failed to
recuse himself, the Court held:
That Judge McBryde abused his discretion and
reversibly erred by failing to recuse himself from
The Avilez-Reyes’ case. We conclude that a
reasonable person, advised of all the circumstances
of this case, would harbor doubts about Judge McBryde’s
impartiality. See, U.S. v. Avilez-Reyes, 160 F.3d 258 (5th
Cir. 1998).

-20-

CONCLUSION
This Petition seeks to resolve one of the fundamental
constitutional challenges in seeking Due Process in accordance
with the Fourteenth Amendment to the Constitution, to
include a full and fair opportunity to challenge governmental
actions, before a tribunal that is unbiased and fair.
Equally important, are the issues raised in this Petition
that are of national importance to all attorneys and licensed
individuals, since if there are no Due Process protections
applicable when a client or individual alleges misconduct, or a
requirement to establish a prima facie case, then the essential
freedoms guaranteed by the United States Constitution will
have be rendered null and void. For all the foregoing reasons,
the Petitioner, Mitzi Elaine Dailey, respectfully requests that
this Court grant the Petition for Writ of Certiorari and any
other relief deemed appropriated.
Respectfully submitted,

Mitzi E
The DaileyLaw Group, LLC
P.O. Box 22297
Baltimore, MD 21203
Tel: (443)915-3149
daileylaw@aol.com
Petitioner, Pro Se
-21-

